<html>
<title> - NOMINATION OF W. CRAIG FUGATE</title>
<body><pre>[Senate Hearing 111-677]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-677
 
                     NOMINATION OF W. CRAIG FUGATE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

 NOMINATION OF W. CRAIG FUGATE TO BE ADMINISTRATOR, FEDERAL EMERGENCY 
        MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY

                             APRIL 22, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
50-388                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5f382f301f3c2a2c2b373a332f713c303271">[email&#160;protected]</a>  


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana                  ROBERT F. BENNETT, Utah
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
                       Mary Beth Schultz, Counsel
               Kristine V. Lam, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                Asha A. Mathew, Minority Senior Counsel
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     4
    Senator Landrieu.............................................    13
    Senator Carper...............................................    16
    Senator Akaka................................................    19
    Senator Burris...............................................    21
Prepared statements:
    Senator Lieberman............................................    25
    Senator Collins..............................................    26
    Senator Akaka................................................    27

                               WITNESSES
                       Wednesday, April 22, 2009

Hon. Mel Martinez, a U.S. Senator from the State of Florida......     1
Hon. Bill Nelson, a U.S. Senator from the State of Florida.......     5
W. Craig Fugate to be Administrator, Federal Emergency Management 
  Agency, U.S. Department of Homeland Security...................     7

                     Alphabetical List of Witnesses

Fugate, W. Craig:
    Testimony....................................................     7
    Prepared statement...........................................    29
    Biographical and financial information.......................    33
    Responses to pre-hearing questions...........................    43
    Letter from the Office of Government Ethics with an attached 
      letter.....................................................   110
    Responses to post-hearing questions for the Record...........   112
    Letters of Support...........................................   142
Martinez, Hon. Mel:
    Testimony....................................................     1
    Prepared statement...........................................    28
Nelson, Hon. Bill:
    Testimony....................................................     5


                     NOMINATION OF W. CRAIG FUGATE

                              ----------                              


                       WEDNESDAY, APRIL 22, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, Carper, Landrieu, 
Burris, and Collins.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Chairman Lieberman. Good morning. The hearing will now come 
to order. Today, our Committee will consider the nomination of 
W. Craig Fugate to be Administrator of the Federal Emergency 
Management Agency (FEMA).
    Mr. Fugate, I welcome you here this morning, and I 
particularly want to welcome our friend Senator Mel Martinez, 
who will be introducing you.
    Senator Martinez, if you are under a time pressure, I would 
be happy to have you go ahead right now.
    Senator Martinez. That would be wonderful. Thank you, Mr. 
Chairman.
    Chairman Lieberman. I know you would like to hear the 
opening statements that Senator Collins and I are going to 
offer, but----
    Senator Martinez. I will be reading them later.
    Chairman Lieberman. All right. [Laughter.]
    Very good, my friend. Please proceed.

 TESTIMONY OF HON. MEL MARTINEZ, A U.S. SENATOR FROM THE STATE 
                           OF FLORIDA

    Senator Martinez. Thank you, Mr. Chairman and Senator 
Collins. I am really honored to be here today to introduce to 
you a great Floridian, and I am really proud that he will be 
serving our country. He is Craig Fugate, who is the Director of 
the Florida Division of Emergency Management. All Floridians 
have benefited from Mr. Fugate's leadership, and I am pleased 
to know that he will soon be serving all Americans at the 
national level as the next Administrator of the Federal 
Emergency Management Agency. In my view, there is no more 
qualified person for the job.
    Anyone who has worked with Mr. Fugate--and I have at the 
local, State, and national levels--will tell you that he has 
forgotten more about emergency management than most people will 
ever know in a lifetime. That is because he has spent most of 
his lifetime working at all levels in this field. As a 
volunteer firefighter, a paramedic, and later a lieutenant with 
the Alachua County Fire Department, he spent the early part of 
his life at the local level and ended up serving as the 
county's emergency manager.
    In 1997, Mr. Fugate was promoted to the State level as 
Chief of the Bureau of Preparedness and Response with the 
Florida Division of Emergency Management, and in this role, he 
helped to build what has become the model emergency management 
program for the Nation. He has helped to manage the response to 
major floods, tornados, wildfires, and hurricanes. One 
hurricane, Hurricane Georges, resulted in more than 200 days of 
activation for the State Emergency Response Team.
    In October 2001, former Governor Jeb Bush elevated Mr. 
Fugate as Director of the Florida Division of Emergency 
Management. As you might imagine, preparing for hurricanes and 
dealing with the aftermath is a way of life for us in Florida, 
but rarely has Florida, let alone any other State or region, 
for that matter, been impacted by as many storms as we saw 
during the 2004--as I was running for the Senate, as a matter 
of fact--and 2005 seasons. In total, three tropical storms and 
eight hurricanes made landfall, including Hurricanes Charley, 
Frances, Ivan, Jeanne, Dennis, Katrina, Rita, and Wilma. 
Despite the constant threat of these storms, Floridians were 
prepared and the State was ready to respond, and that is in no 
small measure thanks to Director Fugate's steady leadership.
    Throughout this time as Director, Mr. Fugate managed 23 
declared State emergencies, including 11 presidentially 
declared disasters, requiring more than $4.5 billion in Federal 
assistance. It was his tremendous ability to coordinate 
disaster response, recovery, preparedness, and mitigation 
efforts with each of the 67 counties and local governments that 
earned him reappointment after Governor Charlie Crist was 
elected governor in 2006.
    Although we, in Florida, will be sad to see him leave, our 
Nation needs him, and we continue to look forward to working 
with him to improve our national response to disasters.
    I want to thank Mr. Fugate for all that he has given in 
service to Florida, and I would urge my colleagues to give him 
a swift confirmation so that he can be our next FEMA 
Administrator.
    Thank you very much.
    Chairman Lieberman. Thanks very much, Senator Martinez. 
That was a very strong statement, and certainly it means a lot 
to the Committee. Senator Collins and I will have copies of our 
statements on your desk by the time you return. [Laughter.]
    Senator Martinez. Thank you very much, yes.
    Chairman Lieberman. Thank you very much. When Senator Bill 
Nelson arrives, we will obviously be honored to hear from him 
as well.
    Let me begin my opening statement and say that the 
extraordinary record of experience in emergency management that 
Mr. Fugate has is, of course, very important, and I want to say 
how historically important it is to this Committee and put it 
in some context.
    The Post-Katrina Emergency Management Reform Act, which 
Senator Collins and I were honored to co-author and the 
Committee was good enough to report out, aimed at addressing 
the failures uncovered by this Committee's investigation into 
the response to Hurricane Katrina. The law requires that the 
FEMA Administrator have a demonstrated ability in and knowledge 
of emergency management and homeland security and at least 5 
years of executive leadership and management experience.
    Now, you would think that would be kind of normal to 
request that of the FEMA Administrator, but that was not the 
case prior to the adoption of the Post-Katrina Emergency 
Management Reform Act, and the obvious fact is--and I note this 
with much appreciation--that Mr. Fugate has a background that 
not only meets but far exceeds these requirements.
    Obviously, the ultimate test of a leader, an Administrator 
in this case, is the qualities that the person brings 
personally to the task, qualities of leadership, ability to 
work with others. But it seemed to us that we had to at least 
guarantee that the person going into this position, so critical 
to the lives and safety of Americans at times of emergency, 
have had the basic experience to give us the confidence to 
believe that he could do this job. And again, I note with great 
pleasure, Mr. Fugate, that you more than satisfy those 
requirements.
    The Post-Katrina Emergency Management Reform Act also 
strengthened FEMA in many different ways, giving it both new 
and enhanced responsibilities and missions. A very important 
aspect of that Act was the decision to keep FEMA within the 
Department of Homeland Security (DHS). I must say that since 
passage of the Act, FEMA has come a long way, showing steady 
improvement year by year. FEMA's successful responses to 
Hurricanes Ike and Gustav in 2008 were proof of the agency's 
progress. And I think few now dispute that FEMA is a stronger 
agency, much stronger than it was before Hurricane Katrina. I 
particularly hope that the career public servants who are in 
FEMA now appreciate the fact that we appreciate what they have 
done and what the agency has done in the last couple of years.
    Last April, Department of Homeland Security Inspector 
General Richard Skinner testified before this Committee that 
FEMA was better prepared for a catastrophe now than it was when 
Hurricane Katrina struck and that actions taken to implement 
the Act have resulted in a much more muscular agency. More 
recently, Mr. Skinner testified that FEMA is stronger now than 
it has ever been in its history as a result of its cooperative 
relationships within the Department of Homeland Security, the 
implementation of Post-Katrina Emergency Management Reform Act, 
and other improvements made as a result of the lessons learned 
from Hurricane Katrina. Additionally, Mr. Skinner reported in 
February of this year that removing FEMA from DHS would be a 
mistake.
    So I take all those to be encouraging signs, and I hope 
they are the death knell of the attempts to remove this 
important agency from the Department of Homeland Security, 
though I would like to ask you about that during our question 
and answer period.
    Although FEMA has come a long way, if you are confirmed as 
the new Administrator, Mr. Fugate, as you know, you still will 
face some tough challenges. Among the top priorities will be 
accelerating the full recovery from Hurricane Katrina, 
developing a long-term recovery strategy and improving FEMA's 
recovery programs, completing plans to respond to future large-
scale disasters, working with States to ensure that they are 
better prepared for response and recovery responsibilities, and 
better tracking where our homeland security grant dollars are 
going to ensure they are being used most effectively to 
strengthen our national preparedness.
    The next FEMA Administrator, of course, will be responsible 
also for continuing to implement the Post-Katrina Emergency 
Management Reform Act so that FEMA really does become the 
world-class standard for emergency management, which we want 
and need it to be.
    I want to say for the record that Mr. Fugate has the 
support of his peers, having been endorsed by the International 
Association of Emergency Managers, the National Emergency 
Management Association, the International Association of Fire 
Chiefs, the National Sheriffs Association, and even by Florida 
Governor Charlie Crist. So I look forward to your testimony 
this morning and to working with you, if you are confirmed.
    Senator Collins, do you want to proceed?
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Lieberman. And then we will go to Senator Nelson.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. I will be very 
brief in my remarks, given the presence of Senator Nelson.
    I just want to join you in welcoming Craig Fugate to the 
Committee. This Committee's comprehensive investigation into 
the flawed response to Hurricane Katrina was the most extensive 
investigation this Committee has ever done, and it produced 
this very lengthy report. I am, of course, going to quiz the 
nominee to make sure he has read every single page of the 
report. [Laughter.]
    But in all seriousness, the Committee's investigation 
revealed fundamental problems with our Nation's preparedness 
for catastrophic disasters and also, following up on the point 
the Chairman made, a lack of qualified leadership at the top 
levels of FEMA. As a result of our Committee's work, as the 
Chairman has noted, Congress passed the Post-Katrina Emergency 
Management Reform Act, which the Chairman and I authored, and 
as a result, our Nation's ability to prepare for and respond to 
all disasters has improved dramatically. And I will say, Mr. 
Fugate, that I was disappointed that in your prepared remarks 
you did not discuss this landmark law and the impact that it 
has had in improving our Nation's emergency preparedness.
    Perhaps the most significant of all the reforms that we 
implemented was the requirement that the FEMA Administrator 
have substantial emergency management experience. Mr. Fugate 
brings 8 years of experience as the Director of Florida's 
Division of Emergency Management. During those 8 years, he 
oversaw the response to 11 presidentially declared disasters. 
So, clearly, the Administration has followed the requirement in 
the law that the head of FEMA bring this sort of experience to 
the position.
    I also am impressed with the widespread bipartisan support 
that Mr. Fugate's nomination has garnered. Clearly, this should 
not be a political post. It should be a nonpartisan post that 
is filled by the most experienced individuals that we can find. 
So, Mr. Fugate, it does speak well for you that both of 
Florida's Senators of two different parties have taken the time 
today to be here to endorse your nomination, and I look forward 
to hearing your testimony and hearing from Senator Nelson, 
whose words will be added to those of Senator Martinez.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Senator Bill Nelson, it is an honor to welcome you to the 
Committee for the purpose of introducing the nominee.

TESTIMONY OF HON. BILL NELSON, A U.S. SENATOR FROM THE STATE OF 
                            FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. And as you know, 
our lives here often have conflicts. I have been chairing a 
meeting of the Armed Services Committee, and thank you for 
scheduling it so that I could temporarily recess that committee 
to come here on behalf of Mr. Fugate. And everything that you 
have said already about Mr. Fugate is true, and I can testify 
to that because I have been sitting by his side in the 
Emergency Operations Center of the State of Florida since 1995 
and have seen him perform under very difficult circumstances.
    I have referred to the two of you as either ``Madam FEMA'' 
or Mr. FEMA.'' You certainly have the knowledge of this 
organization, its deficiencies, and, therefore, you have 
corrected a number of those deficiencies by what we have seen, 
the mistakes in the past. So thank you for what you have 
contributed in the reform of FEMA. Now you have to have the 
personnel that can take the law as you crafted it and have this 
country respond to the natural disaster or other manmade 
disasters in a way that the American people have come to 
expect. And that, of course, is a huge task. That causes all 
the resources of government to be brought together and 
coordinated, and you have to have somebody on the ground who 
does that and somebody who is a professional in doing that. And 
you all in your reports and your hearings before have 
chronicled the mistakes that have been made. Well, I can tell 
you that now you have a professional before you for 
confirmation.
    In addition, his personal training is that he has been in 
these emergency responder positions before he assumed these 
leadership positions. He has been a firefighter. He has been an 
emergency medical services (EMS) person. And then when he 
graduated to the ranks of leadership, he was right there on the 
job ever since we got hammered back in the early 1990s with the 
monster hurricane, which we had to figure out how to get 
through. And we had a very bad experience because the emergency 
responders did not respond. And there was chaos in the 
aftermath of Hurricane Andrew in 1992.
    In the decade that followed, FEMA got its act together, and 
then we saw, with the experience of Hurricane Katrina, FEMA did 
not have its act together, and we knew that in Florida the year 
before when four hurricanes hit Florida in 2004 within a 6-week 
period. At first, you could say FEMA certainly was going to be 
overwhelmed with four hurricanes. That is true. But then you 
saw that the professional expertise coordinated from the 
Federal level was not there. It was a precursor, it was a 
warning of what was to come. And, finally, that happened, to 
the knowledge of everybody, in 2005 in the Hurricane Katrina 
debacle.
    So you have a knowledgeable professional to whom, under his 
leadership, we have seen Florida respond. His style of 
leadership and the Emergency Operations Center that he 
coordinated, and the response, became the role model for the 
rest of the country. That is who you have here in front of you 
today.
    He has a homespun Florida way of describing how he handles 
his professional duties. He calls it ``the Waffle House test.'' 
After a hurricane, if the Waffle House is open, it means that 
there is power and there is water, and so you keep going. But 
if the Waffle House is closed, something has shut them down, 
and you have to start getting it open. And if they are open and 
they have a limited menu, it means that power has been out for 
a while because everything in the freezer that was frozen has 
now melted and you are facing that kind of a situation.
    So I want to commend him to you. As I said, I have had the 
opportunity to sit by him. I will never forget when Hurricane 
Charley suddenly took a right turn and surprised everybody, 
coming right up Charlotte Bay and hitting Punta Gorda head on. 
The good news was it was a confined hurricane with the 
hurricane force winds only 10 miles in diameter. The bad news 
is that it hit people, surprisingly, because it was supposed to 
go further north, a lot of people who had fled Tampa were in 
Punta Gorda. And you can imagine the ensuing chaos, during 
which in the middle of the hurricane the Charlotte County 
Emergency Operations Center roof gets blown off and they have 
to evacuate the Emergency Operations Center in the middle of 
the hurricane. You can imagine the scene at which Mr. Fugate 
arrives a few hours after the hurricane in the Mobile Emergency 
Operations Center and starts to take charge. And this is a 
skilled, experienced professional. It is what this Nation 
needs. It is what Florida has been fortunate to have. And I 
commend him to you for your consideration, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Nelson. I 
will tell you that is one of the most compelling statements we 
have had made by a colleague on behalf of a nominee because it 
is so personal and based on experience. I appreciate it very 
much.
    I also thank you for giving us a Florida definition of 
``the Waffle House test.'' Usually around here, ``waffling'' 
means something else. [Laughter.]
    Let me say, in your opening statement you did not waffle. 
Your introduction was very clear and strong. We appreciate it 
very much. Thank you.
    Senator Collins. Mr. Chairman, before Senator Nelson 
departs, I want to acknowledge that he was the first person to 
come to me when I was Chairman to point out problems with FEMA, 
long before Hurricane Katrina struck. And, indeed, this 
Committee, when I was Chairman--back in the good old days--in 
May 2005, held a hearing looking at FEMA's response to the 2004 
hurricane season. And you brought to my attention the 
widespread fraud that, unfortunately, became prevalent after 
Hurricane Katrina as well. So I just want to acknowledge your 
longstanding leadership in this area. Thank you.
    Chairman Lieberman. Thanks, Senator Collins, for pointing 
that out. Thanks again, Senator Nelson.
    Mr. Fugate has filed responses to a biographical and 
financial questionnaire, answered pre-hearing questions 
submitted by the Committee, and had his financial statements 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made part of the hearing record, with 
the exception of the financial data, which are on file and 
available for public inspection in the offices of the 
Committee.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath, so, Mr. 
Fugate, I would ask you to please stand and raise your right 
hand.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Fugate. Yes, sir.
    Chairman Lieberman. Thank you. Please be seated.
    Mr. Fugate, we would be honored now to hear your statement 
and the introduction of any family members or guests that you 
have with you today.

 TESTIMONY OF W. CRAIG FUGATE \1\ TO BE ADMINISTRATOR, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Fugate. Thank you, Mr. Chairman, Senator Collins, and 
Senator Landrieu. Senator Nelson and Senator Martinez were very 
kind, and having worked with them, I know that they are 
outstanding people, and I have always enjoyed my relationship 
with them. But I also have somebody else here, Mr. Chairman, 
that is probably the most important person in this room to me, 
sir, and that is my wife, Sheree, who is joining me in this 
endeavor. I could not be here without her, and it is, as we all 
know, families first.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Fugate appears in the Appendix on 
page 29.
---------------------------------------------------------------------------
    There are other people here representing a variety of 
groups: My good friend Max Mayfield, former Director of the 
National Hurricane Center; Mike Walker, who has served this 
country in numerous capacities but, most importantly, is here 
to remind me of somebody that has passed, and that is Lacy 
Suiter, who was once described as the ``best Director FEMA ever 
had,'' and often times is my guidepost when looking at 
difficult situations. I go back to the question, ``What would 
Lacy do?''
    There are others representing various organizations from 
the International Association of Fire Chiefs, National 
Emergency Managers Association, and the International 
Association of Emergency Managers.
    Mr. Chairman, I come before you today as the nominee for 
Administrator of FEMA. I am honored that the President has 
asked me to serve in this capacity. I have a statement. The 
Senators have already provided much of that information, so if 
it would please you, I would just like to enter my statement 
into the record.
    Chairman Lieberman. Without objection, so ordered.
    Mr. Fugate. And I just want to hit on a couple of things, 
less about my past, about which much has been said, but what I 
see as the challenges.
    Senator Collins is absolutely correct that the Post-Katrina 
Emergency Management Reform Act is one of the most monumental 
things to come about in emergency management. Many people 
forget that much of what was assumed about FEMA was never 
actually codified. There are oftentimes very gray areas in 
roles and responsibilities. And we were oftentimes welded to 
the Stafford Act as the determining factor of what our roles 
and responsibilities should be.
    Some of the things that the Post-Katrina Emergency 
Management Reform Act has done have made it clear that FEMA is 
part of the Department of Homeland Security. It has made clear 
that the Administrator reports to the Secretary and serves as 
the emergency management advisor to the President and Homeland 
Security Council under the Secretary. It lays out 
responsibilities that go beyond just administering the Stafford 
Act to ensure that this Nation is prepared for all hazards, not 
just those natural hazards that many of us have experienced, 
not just the threats that may come about because of acts of 
terrorism, acts of violence, or failures of technology, but 
prepared for those disasters and those events we may not have 
experienced yet, and to build a team that is not just based on 
FEMA.
    I think sometimes we talk a lot about what FEMA's role is 
and we forget what we are really talking about is how the 
Nation is going to prepare to respond. And that is how I really 
look at this opportunity. As much as we have a lot of work to 
do within FEMA, and there are many things from the Post-Katrina 
Emergency Management Reform Act that we still owe this 
Committee, as well as the recovery that we are still 
responsible for after Hurricanes Katrina and Rita and the 
rebuilding of the Gulf, we also need to recognize that we have 
to build a national focus on the next disaster, some of which 
we can forecast. There is a lot of reference made to hurricane 
season, which starts June 1, 40 days away. Mr. Chairman, the 
next disaster that could be a catastrophe could strike today. 
We do not have the luxury of always knowing what the next 
disaster will be, nor will there always be a disaster that 
there is a forecast for.
    That responsibility means that we have to begin looking at 
our citizens as a resource, not as a liability in our plans; 
that we have to integrate and build capacity and capability at 
the local, State, and Federal levels; that it has to 
incorporate the volunteer, faith-based, and community-based 
organizations and the private sector; that we cannot look at 
some of our challenges and basically try to determine what we 
will do based on our capabilities, but based on what the 
challenges are.
    We cannot forget that many of our citizens who, because 
they do not have the resources, face additional challenges. 
That cannot be an afterthought in our planning. You cannot 
write a plan for disability preparedness after you write your 
main plan. It has to be incorporated as a core element of how 
we make sure that our most vulnerable citizens are taken care 
of.
    When you read the Post-Katrina Emergency Management Reform 
Act, you find the answers to many of the questions that have 
been out as far as what should be the Federal role, how should 
FEMA integrate, and what is the purpose of this organization. 
Previously these questions were addressed through funding, 
appropriations; they were addressed through an interpretation 
of the Stafford Act. I truly believe that the Post-Katrina 
Emergency Management Reform Act has finally defined what this 
Nation expects from its emergency management program, what 
FEMA's role is in that program, and our task to go forward to 
build that team that can respond to the next catastrophe.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Mr. Fugate, for a very 
thoughtful statement. I am going to start my questioning with 
the standard questions we ask all nominees.
    First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Fugate. Mr. Chairman, the only thing that I am aware of 
is that as the Emergency Management Director of the State of 
Florida, I serve as the signature and governor's authorized 
representative on currently open disasters as well as the State 
administrative agency for homeland security grants. I have met 
and will be, if confirmed, signing an ethics agreement which 
will clearly state that I will recuse myself from any of those 
activities involving my previous job as State director for open 
disasters or open homeland security grants. But other than 
that, no, sir.
    Chairman Lieberman. Very well. That is acceptable.
    Do you know of anything, personal or otherwise, that would 
in any way prevent you from fully and honorably discharging the 
responsibilities of the office to which you have been 
nominated?
    Mr. Fugate. No, Mr. Chairman.
    Chairman Lieberman. Third, do you agree without reservation 
to respond to any reasonable summons to appear and testify 
before any duly constituted Committee of Congress if you are 
confirmed?
    Mr. Fugate. Enthusiastically, Mr. Chairman.
    Chairman Lieberman. I hope you continue that level of 
enthusiasm as you go on. [Laughter.]
    We are going to start the first round of questions with 7 
minutes each.
    Your far-reaching opening statement leads me to ask you a 
question that I had not planned to ask you first, and I do not 
expect that you will have a full answer to it, but I 
appreciated what you said. This is an emergency management job, 
and we naturally think of it first in terms of natural 
disasters--hurricanes, tornados, the like. And now we have come 
to think of it in terms of unnatural disasters--terrorist 
attacks--and we will get into these--biological, chemical. But 
this Committee and, I would say, the Congress have a rising 
interest in and concern about the danger of cyber attacks. In 
fact, there is a report expected any day now from the White 
House about possible reorganization of roles.
    There is a Cyber Security Center within the Department of 
Homeland Security. The Homeland Security Department has a 
natural responsibility for protecting the nondefense elements 
of the Federal Government's cyber systems and, most critically, 
working with the private sector to beef up their defenses and 
their capacity to respond to a cyber attack.
    I have no idea whether you have given any thought to this. 
I want to just put it in front of you to see if you have, and 
frankly, I had not thought about it before, but it seems to me 
that FEMA and you, if confirmed, really ought to be at the 
center of the Department of Homeland Security's planning for 
both prevention and particularly response to a cyber attack.
    Mr. Fugate. Mr. Chairman, as the Emergency Management 
Director of the State of Florida, I am well known for doing no-
notice exercises, which we call ``Thunderbolts.'' We have 
actually done exercises involving critical failures in our 
communication infrastructure through various cyber attacks, 
such as shutting down a central office where all Internet 
traffic, phone traffic, and cell traffic would be disrupted.
    I think that, again, our role in FEMA is to be prepared for 
the consequences. If the power goes out, it is really not 
relevant what caused it to go out if the impacts are now 
affecting health care critical infrastructure, and what those 
impacts could be.
    Chairman Lieberman. Right.
    Mr. Fugate. So I think our role in FEMA is, again, not so 
much always focusing in on the things we know, but looking at 
what would be the consequences if that attack occurred, if the 
utilities were shut down, if phone line and cell communication 
was disrupted. We have seen a few examples of this. Once when a 
satellite shut down, we lost all pager capacity across the 
Nation for about 90 percent of the hospitals and other folks 
who depend on pagers.
    We would look at the consequences of that. We would want to 
look at what kind of vulnerabilities and systems could be 
affected. And I think our role at FEMA is, again, looking at 
the impacts and consequences and building capacity and 
capability to address that.
    Chairman Lieberman. Well, that is excellent. I did not know 
that you had done any work on that in Florida. That is very 
encouraging. And I think we are going to have to really spend 
some more effort and resources. I believe Secretary Napolitano 
is committed to this as well in the area, unfortunately, of 
cyber defense. But you are right. If there was an attack on our 
power systems, for instance, a cyber attack, the role that you 
would have through FEMA would be not so much the focus on how 
it happened, because hopefully the power companies themselves 
would have spent some time on that so that they would be able 
to get the system back up, but you would have to deal with a 
cyber attack just as you deal with any other power failure.
    Let me briefly ask you, without belaboring the point, but 
it is an important one to us on the Committee. I know that in 
the past you have made public statements that you thought it 
would be a mistake to take FEMA out of the Department of 
Homeland Security. Do you still hold that position?
    Mr. Fugate. Mr. Chairman, yes, I do. I believe that the 
next confirmed Administrator of FEMA needs to be focused on the 
next disaster, and being focused on that means that the debate, 
as far as I am concerned, is over.
    Chairman Lieberman. I appreciate that answer.
    One of the things that I think we did in the Post-Katrina 
Emergency Management Reform Act that was most significant--I 
hope it is, and I want to get your view on it; I think it has 
begun to work--is to really beef up, to establish these 10 
regional FEMA offices, give significant new responsibilities to 
the FEMA Administrators, to put in one place in each of the 10 
regions representatives from a very wide range of Federal 
response organizations, including, incidentally, in every one 
of them now a Department of Defense representative to 
coordinate the response and to train, as much as one is able, 
for the particular disasters, certainly the natural disasters, 
that are more likely to occur there. Obviously, in the Gulf 
Coast you train for hurricanes and the like.
    I wanted to get your view on what the role of the regional 
office is, as you see it, in enabling FEMA to achieve its 
critical mission.
    Mr. Fugate. I believe the role of the regional offices is 
to be the principal interface with the States in building that 
team. I believe very much that we should be delegating down to 
those administrators the ability to deal with much of the day-
to-day issues and the response that they may have supporting a 
State and to build those partnerships prior to the next event.
    There has to be accountability. There has to be 
responsiveness. But I think we will be best able to achieve 
that by using the regional structure so that we can address, as 
you point out, the unique aspects of the threats that those 
regions face, their capabilities, and the geographical 
distances that have to be covered.
    Chairman Lieberman. Do you think there has been adequate 
involvement of State and local emergency management with FEMA 
up until this time? And, if not, what would you do to improve 
it?
    Mr. Fugate. Mr. Chairman, I think that there has been that 
dialogue, but it oftentimes comes at the point when many of us 
felt decisions had already been made and we were just being 
asked to validate that decision.
    My approach is to bring the stakeholders in to help us come 
up with the solutions and answer the questions, not present 
them with the solutions to ratify.
    Chairman Lieberman. So would you do that exclusively 
through the regional offices or do it yourself from Washington, 
or moving out of Washington yourself?
    Mr. Fugate. I believe we have a variety of options there. 
We have the National Advisory Council. We have our regions. But 
I also believe that the responsibility of the Administrator is 
to go meet people at conferences and go to their States and go 
to the local governments because only through that process can 
we really see the challenges we are facing.
    Chairman Lieberman. Thank you very much. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Fugate, you and I have talked about the tension between 
making sure that aid gets out to the potential victims or the 
actual victims of a disaster as quickly as possible and yet 
ensuring that waste, fraud, and mismanagement are not 
permitted, and in the wake of Hurricane Katrina, we 
unfortunately saw not only a failure to aid the victims in an 
effective way, but widespread and in some cases completely 
preventable waste and fraud.
    This tension, however, is not unique to a large hurricane 
like Hurricane Katrina. Back in 2005, when our Committee looked 
at the 2004 hurricane season in Florida, we found significant 
problems. We found that the Miami-Dade Emergency Operations 
Center reported that the damage from Hurricane Frances was 
minimal and that, in fact, Miami-Dade County did not incur any 
hurricane force winds, tornados, or other adverse weather 
conditions that would cause widespread damage. And yet what 
happened in this case is FEMA designated this county as 
eligible for the individual assistance programs without first 
conducting, as it should have, a damage assessment to determine 
whether Federal assistance was warranted. And this was the 
issue that Senator Nelson first brought to my attention, and 
our Committee found that these two goals of quick and effective 
aid and yet preventing waste, fraud, and abuse are not mutually 
exclusive.
    I would like you to comment on what happened in that case, 
whether you played any role in encouraging the designation, and 
what can be done to ensure that we are not pouring millions of 
dollars into aid to a region that simply did not meet the 
threshold.
    Mr. Fugate. Yes, ma'am. Senator, I was the one that in the 
request for the major presidential disaster declaration placed 
the names of the counties that I thought were going to 
experience hurricane damage prior to landfall. At that time, 
what we felt was the most appropriate route to receive 
assistance and have FEMA release resources to us was to ask for 
a major presidential declaration at the landfall of Hurricane 
Frances, and that would preclude having any damage assessments 
to make that determination. We were basing it on the forecast. 
That and the fact that we were also a relatively small agency 
trying to administer that response meant that we did not have 
any controls or oversight within our response to monitor that 
in real time.
    Post that 2004 hurricane season, we saw FEMA begin 
addressing this through a clear policy of when they would issue 
or when they would solicit a request from a governor for a pre-
landfall emergency declaration. This is important because, 
previously, without the emergency declaration or major 
presidential disaster declaration, prior to the Post-Katrina 
Emergency Management Reform Act, FEMA could not release or 
actually turn over resources to the State to respond. So we 
were driven more by ensuring that we had the capability to 
respond to that disaster and trying to get as much of that done 
under the tools we had.
    In retrospect, the emergency declaration is actually a 
preferable route because it does not provide long-term complete 
assistance to people but addresses the most critical emergency 
needs in the immediate pre- and aftermath of a threatening 
storm or other type of disaster. So that gave us a new tool 
with more guidance on when to ask for that versus defaulting 
back to asking for a declaration at landfall.
    Senator Collins. I think we need to strike the right 
balance. We want to make sure and indeed our Post-Katrina 
Emergency Management Reform Act provides for the authority for 
FEMA to pre-position assets. That is absolutely essential. That 
did not happen with Hurricane Katrina. Disaster struck, and it 
was very difficult to get the needed supplies into the area. 
But, on the other hand, we do not want to trigger individual 
assistance programs and the expenditure of millions of dollars 
to individuals who did not suffer harm because that takes away 
from our ability to provide assistance to those who do suffer 
harm. So that is an issue on which I look forward to working 
with you and making sure that we strike the right balance.
    I would like to turn to another issue. This Committee has 
had a series of hearings chaired by Senator Lieberman to look 
at how government and other private sector and nonprofit 
organizations communicate with our citizens when a disaster 
strikes, and one of the most important services that government 
can provide before and during an emergency is notifying 
citizens of impending danger. Technologies are now available so 
that we can target the notification to a geographical location 
through Reverse 911, text messaging, and E-mail. And we can 
give people notice of impending danger as well as instructions 
on what to do.
    FEMA has been experimenting with various parts of an 
integrated public alert and warning system that would take 
advantage of these new technologies. What are your thoughts on 
how we can improve communication? And will you make it a 
priority to move this project forward?
    Mr. Fugate. Senator Collins, absolutely. Here is the bottom 
line: If we cannot reach the population at risk with the 
information on which they need to act on a Sunday morning at 3 
a.m. when nobody is watching TV or listening to the radio, the 
system fails. You have to define the outcome and then apply the 
process and technology to achieve the ability to warn people 
when they are not prepared, when they are not paying attention, 
when they may not know a threat exists.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins.
    Senator Collins' last question is a very important one, and 
I appreciate your answer about communication to the public in a 
disaster. I cannot resist saying that you have behind you one 
of the great all-time communicators to the American people in 
disasters in Max Mayfield. I must say it makes me feel 
comfortable just having him in the room. [Laughter.]
    It is an honor to have you here.
    Next is Senator Landrieu. As you know, Senator Landrieu 
chairs the Ad Hoc Subcommittee on Disaster Recovery that we 
created that has specific jurisdiction with regard to the 
Stafford Act and emergency management generally. In that 
capacity, I am happy to call on her now.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman, and let me add 
my compliments to Max Mayfield. His is a wonderful face to see, 
and we in Louisiana so appreciate his voice at probably the 
most difficult time our State has ever faced. And without his 
persistent notification, we may have lost even more than the 
2,000 people that we did lose in that storm. We thank him and 
look forward to continuing to work with him.
    Mr. Fugate, I am very impressed with your background, and 
of course, Senator Nelson has commented to me many times about 
the confidence that he and the people of Florida have in you. 
Based on our several meetings and your responses to the 36 
questions that I have submitted prior to this hearing, I am 
convinced that you are the right person for this job. But I 
will say, Mr. Chairman and Madam Ranking Member, that we still 
have a tremendous amount of work to do, despite the great work 
of this Committee, which you mentioned in your opening 
statement. And I am happy that my office helped to inform a lot 
of those discussions about what has gone into the Post-Katrina 
Emergency Management Reform Act and the good work of the 
Chairman and the Ranking Member. I think this area is still 
ripe for aggressive reform. And I am pledging to work with you 
today to help to get a better, stronger FEMA and to identify 
the right team members to strengthen that team so that we never 
have to see and experience what happened in Hurricanes Katrina 
and Rita, let alone what you have experienced in Florida.
    I have six questions. I am probably only going to get to 
three of them, and I will try to stay for the second round, if 
I can. And these are very Louisiana and Gulf Coast specific, so 
forgive me, but we still have our eyes on this recovery.
    Mr. Fugate, on the question about the V-Zones as we build 
out from a catastrophic disaster, these are coastal high hazard 
areas known as Velocity Zones. I agree that construction and 
development should follow sound flood and storm surge data. As 
you know, the Army Corps of Engineers and FEMA are conducting a 
review of our levee system in the country. New flood maps are 
being issued.
    However, some of these actions have left viable Louisiana 
communities, most notably in Cameron Parish, which is home to 
small but very longstanding communities that are working 
communities--oil and gas, commercial fisheries. There are other 
areas in Plaquemines Parish. I am sure this is happening in 
parts of Texas, and along the Alabama and Mississippi coasts.
    Federal regulations permit FEMA to authorize construction 
in a V-Zone if no practical alternative sites are available. 
Will you use your authority to approve some construction for 
fire stations and police stations in communities that obviously 
need those basic protections?
    Mr. Fugate. Senator Landrieu, if I am confirmed, one of the 
things that in our discussion I wanted to be able to do is look 
at V-Zones and make sure we are pragmatic in our 
decisionmaking. Obviously, when a community is at risk and we 
can move that community and minimize that risk to their lives 
and property in the future, we should achieve that. But there 
are times when that is not practical, and we need to look at 
what are the potential options through engineering or other 
types of mitigation techniques that we can use to mitigate that 
hazard.
    Senator Landrieu. Can I ask you how many communities you 
have moved in your experience?
    Mr. Fugate. Generally, the ones in Florida that have been 
moved--Caryville is one from the Tropical Storm Alberto 
floods--have been small.
    Senator Landrieu. And how large was that community?
    Mr. Fugate. Relatively small.
    Senator Landrieu. Like how many, approximately?
    Mr. Fugate. Approximately, I believe, the total was less 
than 100 structures. And, again, in Florida we are facing a 
very similar concern around Lake Okeechobee with the dike and 
the areas there that have now found themselves being upgraded 
as to risk if something happens to Lake Okeechobee.
    Senator Landrieu. And I just want to bring this to the 
attention of this Committee, that moving communities is an 
option if the communities are small enough to move and if they 
are not contributing to the Nation through intrinsic links to 
significant infrastructure. If it is a retirement community, if 
it is a community of condominiums that just were built in the 
wrong place, that is one thing. But, Mr. Chairman, to move 
communities of several thousand people who are maintaining the 
river systems, pipelines, infrastructure, and ports is a whole 
other issue. And this is a very important rebuilding aspect 
this Committee has to focus on, and I am glad to see that this 
nominee is focused. But a tremendous amount of work is going to 
have to be done.
    Let me ask you about arbitration. As you know, after years 
of trying, we finally succeeded at putting a system in place 
that could bring to an end the endless disputes between FEMA 
and local governments about the costs associated with 
rebuilding. There are legitimate differences of opinion 
sometimes, but nonetheless, communities need those differences 
to be resolved. Do you support implementing the law that is now 
in place for some type of arbitration panel?
    Mr. Fugate. Senator Landrieu, if confirmed, absolutely. I 
also want to look at that arbitration process as an opportunity 
to look at repeated issues and see if there are patterns or 
trends that we need to address through policy and rulemaking. 
Again, if these are similar issues, time and time again, this 
may be an opportunity to look at those, identify them, and look 
at what the remedy is so they do not become a continuing issue 
for other jurisdictions.
    Senator Landrieu. I asked you also, if you would, about the 
community disaster loan program, and for the life of me, I 
cannot figure out why more of my colleagues do not appreciate 
just the numbers on this. But you indicated that in some 
instances you did not think that the $5 million cap on 
community disaster loans was adequate, with which I agree, and 
that you would consider other options. But I want to bring to 
the Chairman and Ranking Member's attention, the fact that the 
budget of the City of New Orleans is, as I recall, $264 million 
a year. How could a $5 million loan be anywhere near adequate 
if a city of that size is either completely or half destroyed? 
Could you comment?
    Mr. Fugate. Senator Landrieu, the City of Miami is probably 
all by itself in Miami-Dade County one of the largest economies 
in all of the State of Florida----
    Senator Landrieu. What would a $5 million loan do for Miami 
if half of the city was destroyed?
    Mr. Fugate. I doubt we could make payroll on a monthly 
basis.
    Senator Landrieu. I doubt you could pay----
    Mr. Fugate. Weekly.
    Senator Landrieu [continuing]. One department 2 weeks for 
$5 million.
    Mr. Fugate. Absolutely.
    Senator Landrieu. So I am urging this Committee to 
understand that in a major catastrophic disaster, the current 
amounts on the books are wholly inadequate to maintain basic 
operations and that our fire departments, police departments, 
teachers, and public school system are at tremendous risk 
because of it.
    On your staff turnover, which is also very troubling, we 
are reviewing right now the 1,400 people that are in the office 
in New Orleans. We are going to find out how many are full-time 
FEMA employees, how many are contract employees, and how many 
are part-time employees.
    One of my goals is to get a highly qualified and well-
trained reserve force for this Nation. The people who are at 
risk, at their time of need, do not want to see green recruits. 
They want to deal with trained professionals, like when the 
National Guard shows up--someone that they can rely on. Can you 
promise us that you will make that a priority issue in 
rebuilding and retraining your force and developing creative 
ways to build a trained--even though they may be temporary--but 
qualified workforce for the people who may be subject to 
multiple disasters as we move forward?
    Mr. Fugate. Senator Landrieu, if confirmed, to the best of 
my ability, we need to address the disaster assistance cadre 
and make sure those people are ready to go and serve their 
citizens if they are called to be activated.
    Senator Landrieu. And do you have at least one specific 
suggestion about how you could do that?
    Mr. Fugate. Yes, ma'am. Using similar techniques from the 
Incident Command System, we need to make sure that they are 
typed and trained to the capacity when they deploy. Obviously, 
we do not want to put people with little experience running 
major components in a large disaster. We want to make sure our 
most experienced people are leading, and we bring people in to 
train them and gain that experience, but not at the expense of 
trying to manage a disaster.
    Senator Landrieu. Mr. Chairman, I am going to conclude and 
submit some more questions for the record. This nominee will 
have my support, but I want you and the Ranking Member to know 
that I am going to be working weekly, as we rebuild our region 
in the Gulf Coast, with both of you to get a better system 
because while we have made great improvements, we have quite a 
significant way to go.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Landrieu. I could 
not agree with you more, and I think the work goes on, and your 
role in it is very important. Thank you.
    Senator Carper, welcome.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you very much, Mr. Chairman.
    The first question I want to ask of our witness is what 
does the ``W'' stand for?
    Mr. Fugate. The ``W'' stands for William. I was blessed by 
a mother who called me by my middle name from the time I was 
born, and so I always went by Craig. It was not until 
kindergarten that I found out I had a first name when the 
teacher kept calling me ``William'' and ``Billy'' and ``Bill'' 
and could not understand why I did not answer. [Laughter.]
    Senator Carper. I understand your wife is sitting right 
behind you?
    Mr. Fugate. Yes, sir.
    Senator Carper. Welcome. Thank you for your willingness to 
share this guy with us, and we will return him to you in 4, 5, 
6, or 7 years. All right. In the meantime, hopefully you can E-
mail, or you can text message, or whatever they do.
    The experience we had in Delaware with FEMA even in the 
worst of times has been pretty good, and they have been there 
for us to work with the Delaware Emergency Management Agency 
(DEMA). You probably know some of our folks at DEMA. They send 
their best, and you have some people in our State who know you 
and have enjoyed working with you and admired you.
    I appreciated the opportunity to meet with you during vote-
a-rama down by the Ohio clock. We could not find a place that 
worked, so we found a quiet corner and met there, and I went 
back and forth about every 10 minutes to vote. But I came away 
impressed with your credentials, and I think we are fortunate 
that somebody with your credentials and background is willing 
to serve our country.
    Every one of us has worked in organizations where the 
morale has been real high, and we have worked in organizations 
and been part of a team where the morale was real low. And 
during the time I have been around, I have seen morale at FEMA 
pretty high, and I have seen it pretty low.
    I think FEMA continues to struggle with a number of 
internal issues that are contributing to, still in some cases, 
the low morale of folks in the organization. Some people say it 
is the absorption into the Department of Homeland Security. 
Some say it is the backlash from a bunch of hurricanes, 
including Hurricanes Katrina and Rita, that have contributed to 
this.
    What lessons have you learned along the way in the 
leadership roles that you have played? What do you bring to 
FEMA, particularly from the Florida Department of Emergency 
Management, that will help to improve the human capital side of 
FEMA?
    Mr. Fugate. Senator Carper, you alluded to my friend Jamie 
Turner, the Director of Delaware Emergency Management, a great 
person to have as your friend and to work with.
    Senator Carper. It is a small world. His daughter was my 
scheduler, used to tell me where to go every day. A lot of 
people would like that job.
    Mr. Fugate. In any organization that faces the challenges 
that FEMA faces, it is oftentimes easy to not always have a 
clear picture and understanding of roles and responsibilities. 
I have always, from personal experience, felt that I really was 
happiest when I felt that I was doing my job, when I clearly 
understood what my role and responsibility was, when I was 
given the leadership to empower me to do my job, when I had the 
resources to do my job, and when I had leadership that backed 
me up when things did not go perfect.
    I think that sometimes we have to understand that as much 
as we try, things will not always turn out the way we wanted it 
to. I think that too often, it is not easy for the leadership 
to stand up and take responsibility when the team did not meet 
the expectations, or to make sure that when the team does do 
well, that the team gets recognized; that it is not about an 
individual, it is about the team effort.
    And I think that when I have been a part of those teams, 
people felt they had actual ownership in the process. They were 
not just told what to do, but they knew why they were doing it, 
and they bought into that vision. And it was clear and 
unwavering where we were taking the organization and focusing 
on outcomes, and we did not sacrifice individuals when things 
did not go well, but the leadership took the ownership and 
responsibility and bore that, but the team when we did well, 
got the recognition.
    Senator Carper. Those are my rules, too. Those are great 
rules. Thank you.
    We talked a little bit about this when we met privately, 
but let me just ask you for the record: If confirmed, what 
would be some of your top priorities on taking over as 
Administrator? Are there any current policies that have not 
worked in your mind that you plan on modifying or reversing? 
For example, some former agency leaders recommended, I think, 
that FEMA get out of the long-term housing business and 
transfer that function over to the Department of Housing and 
Urban Development (HUD). That is just an idea, but give us some 
thoughts that you have, some of your key priorities, please.
    Mr. Fugate. Well, I think obviously the priority is being 
prepared for the next disaster, whatever that may be; 
continuing the recovery that we currently have underway with 
Hurricanes Katrina and Rita and rebuilding the Gulf Coast. And 
the challenges then are from the Post-Katrina Emergency 
Management Reform Act--what is our national strategy for 
recovery and our national strategy for housing.
    I think one of the things we have to define is what are we 
really talking about as far as numbers. I know that with a 
hurricane in Miami, we would be looking at about half a million 
housing units, and that would not be an 18-month to 24-month 
program. So we naturally have to build the team of Federal, 
State, and local government agencies and groups that have the 
resources to address what would happen in our case, looking at 
Florida. But when we look at other States, whether we had, 
again, a storm come up the Mid-Atlantic States or if we had the 
New Madrid earthquake, look at what would be the potential 
number in a worst-case scenario. And then I think we start 
going back to our programs and say, ``Where are the gaps at?'' 
I think too often we try to take our programs and build up to a 
number, not really having an expectation that the number may be 
so large that the process will not get us where we need to go. 
And I think that will give us better clarity as to the roles 
and responsibilities of FEMA in the immediate term, as well as 
HUD in the long term, because if we lose half a million units 
in Florida, I can assure you that the need for affordable 
housing will be there long after the Stafford Act programs 
would have sunsetted.
    Senator Carper. I have heard folks complain that FEMA has 
too much bureaucracy and red tape in responding to disasters, 
which slows the pace of recovery. That has not been our 
experience in Delaware. But do you agree with that assessment? 
And if so, what ideas do you have on how to streamline FEMA's 
recovery programs?
    Mr. Fugate. I think we need to go back and look at our 
policies and procedures and make sure that they are not an 
impediment to the intent of the Stafford Act or to CFR 44, 
which was the intent of this body and the Congress in order to 
support State and local governments. I think that the dispute 
resolution panel that we are looking to support in the Gulf 
Coast may give us some indicators. Those issues that we are 
seeing repeatedly, we need to address in that process.
    Senator Carper. All right. The last word, there is a 
necessity to try to align the agency and the work that you all 
do with the law. Also, I think you have a responsibility--I 
think certainly with the leadership of this Committee, an 
opportunity--when the law does not make much sense to come to 
us and say this does not really make a lot of sense and here is 
why, and just suggest that we change it, and I think you will 
get a pretty fair hearing.
    Mr. Fugate. Senator Carper, my approach is let us make sure 
FEMA has not put limitations on itself that the law did not 
intend, and then if we find that it still does not address the 
challenges and it does not get the outcome we want, then that 
is when we would want to come back and provide that 
information, which may require additional legislative action to 
address.
    Senator Carper. Good. Thanks so much. Thanks for your 
willingness to take this on. If confirmed, we look forward to 
working with you. I think you might be confirmed. Good luck, 
sir.
    Chairman Lieberman. Thank you, Senator Carper. Next is 
Senator Akaka.
    Senator Akaka, wherever you go, you bring the warmth and 
tranquility that I associate with Hawaii, but today you bring 
an extra measure of the beauty of the islands. Is there a 
special occasion?

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Yes. Thank you very much, Mr. Chairman. I 
have some visitors from Hawaii, and these are students, and 
they adorned me with the lei that I have on. The lei is a 
symbol of inclusion, saying that we belong together.
    Chairman Lieberman. Hear, hear.
    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
thank you very much, and the Ranking Member, Senator Collins, 
for holding this hearing and for moving on with trying to 
confirm the people that we need to operate our government.
    First, I want to congratulate you, Mr. Fugate, for your 
nomination, and thank you so much for coming to visit me. We 
had a chance to chat about what you might be doing. And I also 
want to thank you for bringing your wife, Sheree, and your 
other loved ones who are here with you today at this hearing. I 
know how important their support is for you and will be in the 
future as you head FEMA.
    As you know, FEMA's primary role in a disaster is to 
provide State and local entities with critical Federal support 
and, of course, to help the people of that particular State, 
and you will be charged with leading these efforts. And FEMA 
must have strong, experienced, and capable leadership.
    And after chatting with you, I believe that you will be 
able to provide the kind of leadership that FEMA needs, and 
that is, the confident leadership and vision that it needs for 
its current time and also the future.
    I want to encourage you to reach out to the stakeholders 
and engage their perspectives, too, and to be a strong advocate 
for ensuring that FEMA has its resources.
    Before I move on to my questions, Mr. Chairman, I want to 
ask that my full statement be included in the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Akaka appears in the Appendix 
on page 27.
---------------------------------------------------------------------------
    Chairman Lieberman. Without objection.
    Senator Akaka. Mr. Fugate, according to the Partnership for 
Public Service, FEMA places 211 out of 222 agencies on its most 
recent ranking of the best places to work in the Federal 
Government. Are you aware of this?
    Mr. Fugate. Yes, Senator, I am.
    Senator Akaka. Well, then, you know that team work, 
effective leadership, strategic management, training and 
development, and support for diversity are among the areas 
where FEMA was rated particularly low. You spoke about your 
human capital priorities, but I would like you to discuss how 
you will address these specific concerns.
    Mr. Fugate. Well, in looking at that and also having read 
the memo from the union that represents many FEMA employees and 
their concerns, I think that we oftentimes find ourselves in 
the roles that we are placed in emergency management without 
clear guidance, clear direction, and authority to do our jobs. 
And I know of nothing else that would sap morale faster than to 
be put into a situation where I was not allowed to solve the 
problems given the rules and regulations under which I operate. 
I think that part of it has to go back to building a team based 
on empowering people to make decisions to carry out the tasks 
they are assigned, giving them the resources they need to do 
it, and providing the support from the leadership of the team 
that says we are going to move forward, we are going to address 
these issues, and we want to empower our staffs to do their 
jobs through the regional structures, through closer 
partnerships with local and State governments.
    I think that doing our job well, doing it with respect for 
each other, and building a team that understands roles and 
responsibilities is the way to build that morale versus trying 
to address it from the standpoint of case by case. I think we 
have to look at the overall efforts within the organization and 
make sure that we are one team supporting our State and local 
governments and meeting the needs of disaster survivors, that 
our members are treated with respect, are empowered to do their 
jobs, and have a clear mission and outcome and the expectation 
to do a job well, and that the leadership supports them in that 
process.
    Senator Akaka. You also mentioned in our chat the 
importance of working together, coordinating activities, and 
fostering partnerships, and as you mentioned, personnel that 
can support these efforts. As FEMA's Administrator, you will be 
responsible for assisting States with all Federal resources, 
including coordinating assistance for other Federal agencies. 
Coordinating all of these agencies takes a great deal of 
planning and leadership.
    What steps will you take to ensure proper coordination 
among all agencies?
    Mr. Fugate. Again, Senator, if I am confirmed, I plan to 
meet with the various components of the Federal response 
family. In particular, I would like to schedule early on the 
opportunity to meet with the National Guard Bureau, with 
NORTHCOM's leadership. And I want to take a little bit 
different approach. I think too often we look at our team and 
say, ``What can you do to support my mission?''
    The reality is that FEMA's mission is to ask them what we 
can do to make sure they are successful in meeting the needs of 
our citizens during a disaster. And I want to take an approach 
that when we sit down and talk, it is not about what they are 
going to do for us or how FEMA is going to be in charge. The 
way I want to approach and build that team is by asking how do 
we support them? Where do they need FEMA to be strong in order 
that they can be successful in their mission?
    Senator Akaka. Yes, and I am glad you are describing it 
that way. It is a two-way street, and we need to use the 
capacities of other agencies as well to help with FEMA's 
efforts. So with that type of leadership, it will be great to 
have you confirmed in this position.
    I want to wish you well, and your family as well, and to 
tell your family that you are depending on their support in 
fulfilling your responsibilities.
    Mr. Chairman, I thank you very much for this opportunity.
    Chairman Lieberman. Thanks very much, Senator Akaka.
    Senator Burris, good to see you. Welcome this morning--even 
though you are not wearing a lei. [Laughter.]

              OPENING STATEMENT OF SENATOR BURRIS

    Senator Burris. Thank you, Mr. Chairman, Madam Ranking 
Member, and Members of the Committee.
    Mr. Chairman, if I were to check the record, I think that 
the agency that I worked for as a young law student at Howard 
University in 1962 was the Office of Emergency Planning, and we 
were then doing all the planning, primarily in case there was a 
nuclear attack on the country. And I am glad to be able now to 
talk with a potential Director of the agency that used to be my 
employer. So just as a kind of historical and personal note, 
Mr. Fugate, I do not think you will have much problem with this 
Senator in reference to your confirmation vote.
    Of course, I also remember seeing you on television quite a 
bit as you were battling all those Florida issues, and you were 
very articulate, very precise, and you had a no-nonsense 
attitude. Now, that certainly impressed me. I did not know that 
someday you would be sitting here seeking to give your service, 
time, and talent to the whole Nation. And at this time, we are 
going to need you. So we are just hoping, of course, that 
everything will go all right with your confirmation. And coming 
from the heartland of the country, we have some major problems, 
two of which are earthquakes and flooding. I think that we must 
certainly be prepared to deal with what we have coming down the 
Mississippi River out of North Dakota and Minnesota when that 
thawing occurs, and I just hope that our State preparedness 
agency will be ready to work with you and that FEMA will be 
able and prepared to respond.
    I would like to ask you, though, if you have been able to 
assess the personnel situation in the agency operation? Have 
you really been able to look at what the needs might be? Is 
there understaffing? Are there, from your limited knowledge at 
this point, turf problems with other agencies or within the 
agency itself? And this story about wanting to take FEMA from 
Homeland Security, could you give me some insight on what your 
current knowledge is of this situation as you walk into this, I 
hope, challenging position?
    Mr. Fugate. Well, Senator Burris, thanks for the kind 
words. As a nominee, my interaction with staff has been 
minimal. I have been getting a lot of staff briefings. But my 
one observation is this: I cannot give you percentages, but my 
sense is I can divide FEMA staff into three groups: Those who 
are doing their jobs and working to the best of their ability 
and know what their role is; there are some who would like to 
see FEMA outside of Homeland Security; I even believe there are 
some who have joined the agency that perhaps would like to see 
themselves outside of FEMA.
    My message to all of them is, obviously, if you are still 
thinking about other things, you are not focused on our primary 
mission: Are we ready for the next disaster? I think that is 
the message we have to send loud and clear, which is that we 
have a job to do. We need to build that team. We need to 
utilize the folks who are there and empower them to get the job 
done. And we need to stay focused on our mission because I do 
not know where the next disaster is going to be, and I know 
because I am from a hurricane-prone State that there is a lot 
of reference made to hurricane season. But I also understand as 
an emergency manager that a disaster is a come-as-you-are 
event. It does not matter what you are planning to do next 
year, how many people you are going to have on board 2 years 
from now. All that matters is when disaster strikes, are we 
ready to coordinate on behalf of the President the assistance 
to a governor in his time of need, and that requires a team 
effort. And at that point, if we are still having internal 
debates, if we are not good partners within our Federal family 
within DHS and with our other partners, then we are going to 
fail. And we have to focus on our mission making sure we are 
ready for the next disaster, and we have to build those 
relationships and partnerships not only with our Federal 
partners but with our State and local partners. We cannot do 
this as an agency response. We have to be a team.
    Senator Burris. That is certainly the proper attitude to 
take, and I understand also that during the Hurricane Katrina 
crisis, HUD had offered help for housing, and there was just no 
type of response. I just hope that when you get there, you will 
have the opportunity to work with the cross-support of other 
agencies that will be able to lend their expertise. And, of 
course, also looking at that New Orleans situation, how are we 
going to deal with those trailers that had formaldehyde in 
them, where people are now living in those conditions? I do not 
know whether or not Congress has to do something about that or 
whether or not it is the Administration, but we cannot put our 
citizens, even in emergencies, in temporary housing in more 
danger than the disaster itself. So I hope that some of those 
issues will be addressed.
    Have you given any thought to those circumstances?
    Mr. Fugate. Yes, Senator Burris. In regard to the options 
and types of products we can use for housing, I think some 
steps were taken by my predecessor, Dave Paulison, to look at 
how we could specify products that did not have a formaldehyde 
risk. I am not advocating that there is any particular best 
solution. But I think when you look at what we are facing, we 
have to make sure that we are able to address the housing 
situation both in the immediate aftermath of a disaster as well 
as what the long-term outcome will be so we can assure that 
communities are able to survive a disaster and that we are not 
left with the option of only being able to move people away 
from their community for an extended period, if not sometimes 
permanently, when a disaster strikes.
    Senator Burris. Mr. Fugate, we are looking forward to your 
confirmation. We hope and pray that we will have no disasters 
in my State, which we know will not be the case. But I 
certainly will be looking forward to FEMA's response when the 
Mississippi River starts overflowing and the New Madrid fault 
starts acting up and my constituents get shaken up by 
earthquakes and flooding.
    Good luck to you, and I am pretty sure that now you have 
gotten yourself into it; I hope your family is ready to kiss 
you good-bye and see you in about 4 years. [Laughter.]
    Mr. Fugate. Thank you, Senator.
    Chairman Lieberman. Thanks very much, Senator Burris.
    I am going to ask that, if Members of the Committee have 
additional questions, we submit them to you in writing. It has 
been a very good hearing and exchange. We actually, unusually, 
are going to adjourn in a moment and then reconvene immediately 
to hear the nomination of John Morton to be the head of 
Immigration and Customs Enforcement at the Department.
    Is there anything you would like to say, Mr. Fugate, in 
conclusion?
    Mr. Fugate. Mr. Chairman, it has been an honor to be here. 
I ask for your support. I want to be part of the team that can 
support our local governments and States.
    Again, I would like to see the Post-Katrina Emergency 
Management Reform Act be fully implemented. I believe it is our 
way forward. But I also understand it cannot be done by one 
organization by itself. It requires full partnership, and it 
needs to be a team effort.
    Chairman Lieberman. Well, thanks for that. You will 
certainly have my support. I hope to move this nomination as 
quickly as possible so we can get you into the office where I 
know the Secretary and the American people need you to be. We 
are going to keep the record open until tomorrow at 12 noon for 
submission of any written questions or statements for the 
record.
    Senator Collins, would you like to say anything in 
conclusion?
    Senator Collins. Thank you, Mr. Chairman. I just want to 
wish our nominee well. I, too, am impressed with his background 
and responses this morning, and I look forward to working with 
him.
    Chairman Lieberman. Thanks, Senator Collins.
    Before I officially adjourn, I am going to ask--this is a 
little unusual, so if you are staying, stay. If you are 
leaving, try to leave as quickly as you can. We are going to 
bring Mr. Morton on.
    With that, thanks, and all good wishes to you. This hearing 
is adjourned.
    [Whereupon, at 11:23 a.m., the Committee adjourned and 
proceeded to other business.]


                            A P P E N D I X

                              ----------                              


                 OPENING STATEMENT OF SENATOR LIEBERMAN

    Good morning. The hearing will now come to order. Today our 
Committee will consider the nomination of W. Craig Fugate to be 
Administrator of the Federal Emergency Management Agency. Mr. Fugate, 
welcome. I also want to welcome my friends and colleagues, Senators 
Bill Nelson and Mel Martinez, who will be introducing the nominee.
    Senators Nelson and Martinez have worked closely with Mr. Fugate in 
his capacity as Director of the Florida Division of Emergency 
Management, a position he has held since October 2001 and which has 
provided essential preparation for the post to which Mr. Fugate has 
been nominated.
    Before being appointed Director, Mr. Fugate was the Division of 
Emergency Management's Chief of Preparedness and Response. Before that, 
he served for 15 years in local government, including 10 years as the 
Emergency Manager for Alachua County, 3 years as a Lieutenant with 
Alachua County Fire Rescue, and many years as a volunteer firefighter 
and paramedic.
    In each of these positions, Mr. Fugate has provided strong 
leadership, helping guide the State of Florida and relevant local 
governments through a range of challenges, including several 
devastating and deadly hurricanes.
    The Post-Katrina Emergency Management Reform Act--authored by 
Senator Collins and myself in 2006 to address the failures uncovered by 
this Committee's investigation into the response to Hurricane Katrina--
requires that the FEMA Administrator have a demonstrated ability in and 
knowledge of emergency management and homeland security and at least 5 
years of executive leadership and management experience. Mr. Fugate's 
background far exceeds these requirements.
    The Post-Katrina Act strengthened FEMA, giving it significantly new 
and enhanced responsibilities and missions. A very important aspect of 
the Post-Katrina Act was the decision to keep FEMA within the 
Department of Homeland Security.
    Since passage of the Post-Katrina Act, FEMA has come a long ways, 
showing steady improvement year by year. FEMA's successful responses to 
Hurricanes Ike and Gustav in 2008 were proof of the agency's progress 
and few now dispute that FEMA is a stronger agency than it was before 
Hurricane Katrina. I particularly hope the career public servants in 
FEMA appreciate the fact that we appreciate what they have done and 
what FEMA has done over the last couple of years.
    Last April, Department of Homeland Security Inspector General 
Richard Skinner testified before this Committee that FEMA was better 
prepared for a catastrophe now than it was when Hurricane Katrina 
struck and that actions taken to implement the Post-Katrina Act have 
resulted in a more muscular agency. More recently, Mr. Skinner 
testified that FEMA is stronger now than it has ever been in its 
history as a result of its cooperative relationships within the 
Department of Homeland Security, the implementation of the Post-Katrina 
Act, and other improvements made as a result of the lessons learned 
from Hurricane Katrina.
    Additionally, Mr. Skinner reported in February this year that 
removing FEMA from DHS would be a mistake.
    Despite clear signs of FEMA's improvement and the Inspector 
General's assessments, some continue to advocate for taking FEMA out of 
DHS. When we drafted the Post-Katrina Act we thought it would be a 
serious mistake to remove FEMA from the Department and sever its 
cooperative relationship with other DHS assets.
    Our Hurricane Katrina investigation found that FEMA had never been 
capable of handling a hurricane the magnitude of Katrina, even when it 
was a stand-alone agency. And we are certain that stripping FEMA from 
DHS now would undermine the positive developments of the past few years 
and once again throw FEMA and its employees into turmoil.
    Although FEMA has come a long way, the new Administrator will face 
many tough challenges. Among the top priorities will be kick-starting 
what has become a stalled recovery to Hurricane Katrina; developing a 
long-term recovery strategy and improving FEMA's recovery programs; 
completing plans to respond to future large-scale disasters; working 
with states to ensure they are better prepared for response and 
recovery responsibilities; and better tracking where our homeland 
security grant dollars are going to ensure they are being used most 
effectively to strengthen our national preparedness.
    The next FEMA Administrator, of course, will be responsible for 
continuing to implement the Post-Katrina Act so that FEMA really does 
become the world class standard for emergency management that we want 
and need it to be.
    Everything I know of Mr. Fugate's record suggests he is the best 
man for this job. Furthermore, he has the support of his peers, having 
been endorsed by the International Association of Emergency Managers, 
the National Emergency Management Association, the International 
Association of Fire Chiefs, the National Sheriffs Association, and 
Florida Governor Charles Crist.
    I look forward to your testimony this morning and working with you 
in the coming months and years if you are confirmed.
    Thank you.
                               __________

                  OPENING STATEMENT OF SENATOR COLLINS

    I join the Chairman in welcoming two nominees: Craig Fugate to head 
the Federal Emergency Management Agency and John Morton to lead 
Immigration and Customs Enforcement.
    This Committee's comprehensive investigation into the flawed 
response to Hurricane Katrina revealed fundamental problems with our 
nation's preparedness for catastrophic disasters. As a result of our 
Committee's work, Congress passed the Post-Katrina Emergency Management 
Reform Act in 2006. Our nation's ability to prepare for and respond to 
all disasters has improved dramatically due to this legislation.
    Perhaps the most significant of our reforms, however, was the 
requirement that the FEMA Administrator have substantial emergency 
management experience. Mr. Fugate brings eight years of experience as 
the Director of the Florida Division of Emergency Management to the 
office. During those eight years, Mr. Fugate oversaw the response to 11 
Presidentially Declared Disasters.
    The logical combination of all-hazards prevention, preparedness, 
response, and recovery underscores the need to keep FEMA within DHS. 
Detaching FEMA in the vain hope of recapturing mythical halcyon days 
would weaken its effectiveness, reduce the ability of DHS to carry out 
its all-hazards planning mandate, cause needless duplication of effort, 
and foment confusion among state and local first responders during a 
disaster.
    It is my expectation that Mr. Fugate will see the clear benefit of 
keeping FEMA within DHS, particularly given the strong views of our 
nation's first responders in favor of this structure.
    Turning to our other nominee, John Morton has been nominated to 
head Immigration and Customs Enforcement, which is tasked with 
enforcing our nation's immigration and customs laws. ICE faces huge 
challenges, not the least of which is the fact that the United States 
has an estimated 12 million illegal immigrants within its borders. ICE 
plays a vital role in coordinating interior enforcement to detain and 
remove those who have violated our immigration laws.
    ICE also conducts complex investigations of human, drug, weapons, 
and cash smuggling networks. This role has recently received 
significant attention because of the impact of increasingly violent 
Mexican drug cartels on our southwest border. The agency also combats 
the use of fraudulent documents and practices to obtain visas and other 
immigration benefits.
    To accomplish its mission, ICE must forge effective partnerships 
with state and local law enforcement. ICE stands on the front line 
against numerous threats to our nation. It helps ensure that we 
continue to let our friends in while keeping our enemies out.
    To enhance the nation's border security, Secretary Janet Napolitano 
recently announced the appointment of a border czar that will focus on 
the cross-border flow of humans, drugs, weapons, and cash. I will be 
interested in hearing from Mr. Morton about how he would anticipate 
working with the new border czar and what authorities that czar will 
have over ICE policies and operations.
                               __________

                   OPENING STATEMENT OF SENATOR AKAKA

    Thank you, Mr. Chairman. Mr. Fugate and Mr. Morton, I want to 
congratulate you on your nominations. I also want to thank your family 
and loved ones for making the trip to be here today. I know how 
important their support is through this process.
    Mr. Fugate, in the aftermath of Hurricane Katrina, this Committee 
worked to improve FEMA's ability to meet its preparedness and response 
mission. The Committee's investigation of the response to Hurricane 
Katrina found a critical failure of leadership. FEMA must have strong, 
experienced, and capable leadership.
    If confirmed, you will face many challenges as FEMA Administrator. 
Hurricane season is around the corner, pandemic influenza continues as 
a serious public health threat, and man-made disasters could strike at 
any time. In Hawaii, we have had six disaster declarations over the 
past nine years due to severe storms and flooding, mudslides, and 
earthquakes. Major flooding in December caused the current disaster 
declaration, which FEMA is responding to on the islands of Oahu and 
Kauai. Within my home state, we also have one of the most active 
volcanoes in the world, the Kilauea Volcano. FEMA has done a good job 
of working with the State Civil Defense Office to monitor and support 
Hawaii when disasters hit. However, Hawaii's isolated location and 
unique geography require greater planning and preparation for disaster 
preparedness and response.
    FEMA's primary role in a disaster is to provide state and local 
entities with critical Federal support, and if confirmed you will be 
charged with leading those efforts. I believe that you will provide 
FEMA with the confident leadership and vision it needs to meet current 
and future challenges. As a life-long public servant, you have a depth 
of experience at the state and local level handling small and large-
scale emergencies. You know first-hand how the Federal Government can 
work with stakeholders, and you have seen FEMA's strengths and 
weaknesses.
    I encourage you to reach out to all the various stakeholders and 
engage their perspectives. I also hope you will be a strong advocate 
for ensuring that FEMA has the resources it needs.
    Immigration and Customs Enforcement (ICE) likewise needs strong 
leadership that will direct the agency in a way that makes it more 
cohesive and effective.
    Mr. Morton, many problems that were a result of the merger between 
the Immigration and Naturalization Service and the Customs Service 
still plague the agency today. ICE has struggled with poor morale and 
creating a cohesive ICE culture. Additionally, ICE has a wide range of 
responsibilities, making it especially important to manage the agency's 
resources efficiently and to properly coordinate and prioritize its 
activities. I know you will use your contacts at the Department of 
Justice to the agency's advantage, and I hope you also will develop 
close working relationships with the DHS components including Customs 
and Border Protection and Citizenship and Immigration Services, as well 
as other agencies, to coordinate ICE's efforts and eliminate 
duplication.
    I am pleased that improving immigration detention standards and 
refocusing worksite enforcement on employers are priorities of yours. 
As you know, ICE has been criticized for poor detainee treatment and 
healthcare, detaining families with children in prison-like facilities, 
and mistakenly detaining legal residents. I look forward to seeing the 
changes that you will bring forth, once you are confirmed.
    Finally, I urge you to review Federal Protective Service (FPS) 
operations, in particular whether FPS relies too heavily on contract 
security guards. There are limitations to what contract security guards 
can do, which can weaken security at Federal buildings. The challenges 
that FPS faces require your focused attention and support.
    I look forward to working with both of you to meet these 
challenges.
                               __________
                               [GRAPHIC] [TIFF OMITTED] T0388.001
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.002
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.003
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.004
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.005
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.006
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.007
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.008
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.009
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.010
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.011
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.012
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.013
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.014
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.015
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.016
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.017
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.018
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.019
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.020
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.021
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.022
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.023
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.024
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.025
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.026
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.027
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.028
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.029
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.030
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.031
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.032
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.033
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.034
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.035
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.036
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.037
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.038
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.039
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.040
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.041
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.042
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.043
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.044
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.045
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.046
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.047
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.048
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.049
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.050
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.051
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.052
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.053
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.054
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.055
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.056
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.057
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.058
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.059
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.060
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.061
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.062
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.063
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.064
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.080
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.081
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.082
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.066
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.067
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.068
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.069
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.070
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.071
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.072
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.073
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.074
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.075
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.076
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.077
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.078
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.079
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.083
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.065
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.152
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.102
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.103
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.104
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.105
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.106
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.107
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.108
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.109
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.110
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.111
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.112
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.113
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.114
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.115
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.116
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.117
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.118
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.119
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.120
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.121
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.122
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.123
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.124
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.125
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.126
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.127
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.128
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.129
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.130
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.131
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.132
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.133
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.134
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.135
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.136
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.137
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.138
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.139
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.140
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.141
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.142
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.143
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.144
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.145
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.146
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.147
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.148
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.149
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.150
                               
                               [GRAPHIC] [TIFF OMITTED] T0388.151
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
